   August 29, 2002




Financial
Management
Implementation of the Data Quality
Management Control Program for
the Military Health System
(D-2002-141)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Inspector
 General of the Department of Defense at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

ASD(HA)              Assistant Secretary of Defense (Health Affairs)
DQMCP                Data Quality Management Control Program
MRHB                 Military Retirement Health Benefits
MTF                  Military Treatment Facility
TMA                  Tricare Management Activity
TOPS                 Tricare Operational Performance Statements
          Office of the Inspector General of the Department of Defense
D-2002-141                                                                August 29, 2002
   (Project No. D2001FA-0097)

         Implementation of the Data Quality Management Control
                Program for the Military Health System

                                Executive Summary

Who Should Read This Report and Why? DoD health care managers should read this
report. Military health care data is used for a variety of critical purposes, including
managing patient care, determining the optimal health care system, and for financial
management. These managers can directly impact the quality of the data collected.

Background. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” and Public Law 103-356, the “Federal Financial
Management Act of 1994.” This audit supports our annual auditing of the DoD Military
Retirement Health Benefits Liability and DoD Agency-Wide Financial Statements. The
DoD Office of the Actuary calculated the military retirement health benefits liability at
$192.4 billion on the FY 2000 DoD Agency-Wide Financial Statements. The liability
has tripled to more than $580 billion with the implementation of the National Defense
Authorization Act for FY 2001, which extends medical benefits to military retirees who
are medicare-eligible. This calculation relied significantly on health care inpatient and
outpatient workload data compiled from the military treatment facilities and purchased
care providers.

Results. The military treatment facilities visited did not fully implement the
November 29, 2000, Assistant Secretary of Defense (Health Affairs) policy guidance for
the Data Quality Management Control Program. The facilities did not adequately
prepare or complete the Data Quality Management Control Review List and the Data
Quality Statement. Although the Surgeons General were briefed on the results of the
program, they had not emphasized training of personnel in the facilities in order to ensure
data accuracy and standardization. Tricare Management Activity needs to adequately
implement the Data Quality Management Control Program by initiating a DoD
Instruction for program guidance. Then, if the Surgeons General monitor the program
and provide training to the program participants, the program should provide the controls
needed to ensure that medical provider data are timely and accurate. See the Finding
section for details on the recommendations.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred with the recommendations; and stated that guidance was issued to improve
monitoring and compliance with the goals of improved data quality. Reviews of data
quality were initiated, a Data Quality Working Group was established, the class length
for the Data Quality Management Control Program was increased, and a draft DoD
Instruction on the Data Quality Management Program was in coordination. Three major
changes to improve compliance with the program were revisions to the review list and
data quality commander’s statement, reporting Military Retirement Trust Fund level of
performance, and inclusion of the Data Quality Management Control Program into
Service Medical Inspector General and Audit Agency Compliance Program. Additional
comments are not required. See the finding section for a discussion of management
comments and the Management comments section for the complete text of the comments.
Table of Contents

Executive Summary                                                       i


Background                                                             1


Objectives                                                             3


Finding
     Data Quality Management Control Program for the Military Health
       System                                                          4

Appendixes
     A. Scope and Methodology                                          11
          Prior Coverage                                               12
     B. Data Quality Management Control Program Flowchart              13
     C. Report Distribution                                            14

Management Comments
     Assistant Secretary of Defense (Health Affairs)                   17
Background
    Financial Statement Requirement. Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994, requires
    DoD to prepare annual audited financial statements. The FY 2000 DoD Agency-
    Wide Financial Statements include financial statements for a reporting entity
    titled “Other Defense Organizations-General Funds.” The Office of Management
    and Budget Bulletin No. 01-09, “Form and Content of Agency Financial
    Statements,” September 25, 2001, outlines guidance for reporting pensions, other
    retirement benefits, and other post-employment benefits.

    Military Retirement Health Benefits Liability. One of the major components
    of the Other Defense Organizations Nonfederal Liabilities not covered by
    budgetary resources is the Military Retirement Health Benefits (MRHB) Liability.
    The calculation of the medical treatment facility portion of the MRHB Liability
    requires extraction of workload, cost, and demographic data from multiple
    databases within the Military Healthcare System and DoD. Data were also
    extracted from the Composite Health Care System, Medical Expense Performance
    Reporting System, and the Defense Enrollment & Eligibility Reporting System.
    Purchased care workload is measured by using the Government share of the
    health care episode or prescription cost. The MRHB Liability estimate relies
    significantly on the military treatment facility (MTF) expense, reported by the
    Medical Expense Performance Reporting System. The Composite Health Care
    System provides outpatient workload data to the MRHB Liability. The military
    treatment facility workload data are then extracted from the Composite Health
    Care System. The DoD Office of the Actuary calculated the MRHB Liability as
    $192.4 billion on the DoD Agency-Wide FY 2000 Financial Statements. It is
    projected that the Military Retirement Health Benefit Liability has more than
    tripled to $580 billion with the implementation of the National Defense
    Authorization Act for FY 2001, which extends medical benefits to military
    retirees who are medicare eligible.

    Prior Audit Recommendation. The Inspector General of the Department of
    Defense Report No. 99-127, “Data Supporting the FY 1998 DoD Military
    Retirement Health Benefits Liability Estimate,” April 7, 1999, determined that the
    military treatment facility workload data were unreliable. The report also stated
    that the failure to verify the accuracy of the workload data used to calculate the
    MRHB Liability would constitute a significant impediment in achieving
    unqualified opinions on both DoD and Government-Wide Financial Statements.
    Additionally, the report recommended that the Assistant Secretary of Defense
    (Health Affairs) (ASD[HA]) develop and implement a data quality assurance
    program. In response to the audit recommendation, the ASD(HA) developed the
    Data Quality Management Control Program instituted by the November 29, 2000,
    Policy Memorandum.




                                        1
Data Quality. An integral part of performance measurement for the military
health system is data quality. To provide the right information to the right people
at the right time requires accurate, timely, and complete data. The military health
system cost and workload reporting systems provide data that are used for the
following reasons:

       •   making health care policy decisions,

       •   preparing cost allocations,

       •   negotiating with managed care support contractors,

       •   establishing billing rates,

       •   justifying expenditures and budgets, and

       •   supporting third party collection and medicare subvention initiatives.



Data Quality Management Control Program. The ASD(HA) FY 2000 Annual
Statement of Assurance identified military health system data quality
management controls as a material control weakness. The ASD(HA) Policy
Memorandum, “Data Quality Management Control Program,” dated
November 29, 2000, establishes the Data Quality Management Control Program
(DQMCP) for the military health system. The DQMCP was developed by Tri-
Service working groups with the objective of improving the overall quality of
MTF financial and clinical workload data. The program requires command
oversight to improve the submission of data and to assure the uniformity and
standardization of the information across the Military Health System. The policy
memorandum recommends the following reporting organizational structure.

   •   The MTFs are to complete the monthly Data Quality Management Control
       Review List, brief the MTF Executive Committee, and forward the
       monthly Commander’s Statement with the commander’s signature.

   •   The Service data quality managers are to identify data quality deficiencies
       and recommend corrective action, brief the Military Department Surgeons
       General, and forward data quality deficiencies and findings with
       corrective actions proposed.

   •   The Tricare Management Activity should subsequently develop metrics to
       correct and improve data quality, brief Deputy Surgeons General, and
       present metrics of results and findings.

The ASD(HA) provides the Annual Statement of Assurance, which includes the
DQMCP, to the Secretary of Defense. The program was designed as part of the
overall management control program for the military health system. The DoD
data quality characteristic and conformance measures are accuracy, completeness,
consistency, timeliness, uniqueness, and validity. See Appendix B for the
DQMCP flowchart.


                                         2
    Tricare Management Activity (TMA) Responsibility. DoD Directive 5136.12,
    “Tricare Management Activity,” dated May 31, 2001, states that the Director,
    TMA, under the authority, direction, and control of the ASD(HA), shall manage
    the execution of policy in the administration of all DoD medical and dental
    programs. TMA issues program direction for the execution of policy within the
    DoD military health system to the Surgeons General of the Army, Navy, and Air
    Force. For the DQMCP, the TMA Resource Management Office collects the
    consolidated data from the Services, disseminates the data, and produces periodic
    reports. TMA Resource Management Office is also responsible for compiling
    information from the Commanders’ Statements signed by the MTF Commanders
    and corresponding data metrics to measure program performance. The TMA
    Resource Management Office monitors the metrics to improve data quality and to
    implement MTF-level reporting and audit oversight. TMA compiles metrics
    submitted by the three Services, then submits the results to each of the surgeon
    general resource managers and to the Deputy Surgeons General.


Objectives
    The objective of the audit was to determine whether the MTFs, the Surgeons
    General, and the TMA had implemented the Data Quality Management Control
    Program for the military health system. Specifically, we determined whether the
    policies and procedures described in the November 29, 2000, policy
    memorandum, “Data Quality Management Control Program,” issued by the
    ASD(HA) were implemented.




                                        3
           Data Quality Management Control
           Program for the Military Health System
           Military treatment facilities did not fully implement the
           November 29, 2000, ASD(HA) policy guidance for the DQMCP.
           Specifically, the three military treatment facilities visited did not
           adequately prepare or complete the Data Quality Management Control
           Review List and the Data Quality Statement. This occurred because the
           ASD(HA) did not provide adequate program implementing guidance to
           initiate the program; the Surgeons General of the Military Departments
           did not provide specific training to implement the DQMCP; and the TMA
           did not adequately develop metrics to monitor program results. As a
           result, there are still concerns about the data used to support the Military
           Retirement Health Benefit Liability Estimate, which will impact DoD
           decision making.


Data Quality Program Requirements
    The ASD(HA) policy memorandum, dated November 29, 2000, establishes the
    elements for the DQMCP for the military health system. The elements include
    the following 10 steps.

    Military Treatment Facility Responsibilities. Steps 1 through 3 state that each
    MTF will designate a data quality manager and a data quality assurance team who
    will complete the monthly Data Quality Management Control Review List
    (Review List) and Commander’s monthly Data Quality Statement. The Review
    List is a multiple item questionnaire used as an internal tool to assist in
    identifying and correcting financial and clinical workload data problems. The
    completed Review List provides information for the completion of the
    Commander’s monthly Data Quality Statement (Commander’s Statement). The
    Commander’s Statement acknowledges responsibility for the financial and
    clinical workload data reported from his or her respective MTF. Once the Review
    List is completed, the MTF data quality manager briefs the results to each MTF
    executive committee. Each MTF Commander will chair the executive committee
    for that facility and will review, sign, and forward the Commander’s Statement to
    the Service data quality manager.

    Military Surgeons General Responsibilities. Steps 4 through 6 state that the
    Commanders’ Statements are analyzed by the Service data quality manager, who
    will then identify the overall data quality deficiencies and propose corrective
    actions. The Service data quality manager briefs the Military Department’s
    Surgeon General on the data quality deficiencies and proposed corrective actions.
    The Service data quality manager then forwards data quality deficiencies and
    proposed corrective actions to the resource management steering committee
    through the management control program office in TMA Resource Management.
    The resource management steering committee is the biweekly meeting of Service
    budget representatives to discuss issues and concerns on the Defense Health



                                         4
    Program Budget. Data quality is a critical part of this process due to the fact that
    inaccurate data results in inaccurate reports and possible loss of funds.

    Tricare Management Activity Responsibilities. Steps 7 through 10 establish
    the TMA Resource Management Office’s responsibility for developing metrics to
    measure performance of the DQMCP. Metrics from the DQMCP will be reported
    in Tricare Operational Performance Statements (TOPS). TOPS is both a
    statement and an evaluation tool providing a snapshot of the performance of the
    military health system. As a statement, it establishes a historical record of
    performance that can be used to identify long-term trends in performance. As an
    evaluation tool, it is a compendium of routine analyses conducted by the TMA
    Office of Health Program Analysis and Evaluation in its routine surveillance of
    the military health system. Metrics from the DQMCP will be presented in
    briefings to the Deputy Surgeons General. The ASD(HA) will provide an Annual
    Statement of Assurance to the Secretary of Defense regarding the status of the
    DQMCP. Appendix B is a DQMCP flowchart.


MTF Program Implementation
    Two of the three MTFs visited had attempted to prepare the Review List and the
    Commander’s Statement, however inconsistent interpretation of the guidance
    caused incorrect responses. The following table summarizes the degree to which
    the lists were inaccurate.

                               MTF Incorrect Responses
      Military Treatment       Commander’s Statement                Review List
            Facility              (8 questions total)           (47 questions total)
     Brooke Army Medical           3 (37.5 percent)               8 (17.0 percent)
     Center
     Naval Medical Center             6 (75.0 percent)         Not prepared by MTF
     Portsmouth
     Wilford Hall Medical             5 (62.5 percent)            19 (40.4 percent)
     Center


    At each MTF visited, the Commander’s Statement and Review List had numerous
    incorrect responses. Additional incorrect answers may still be unaccounted for
    because we could not determine the accuracy of all answers due to insufficient
    supporting documentation. As a result, TMA and the Surgeons General will not
    have accurate information to make sound business decisions for improving data
    quality. The findings for each MTF visited follow.

    Brooke Army Medical Center. The Data Quality Manager and the Data Quality
    Assurance Team for Brooke Army Medical Center did not adequately prepare the
    Review List and the Commander’s Statement. Brooke Army Medical Center had
    complied with the steps prescribed by the November 29, 2000, policy
    memorandum, however, they answered 8 of 47 Review List questions incorrectly.


                                          5
    For example, question number 1 on the Commander’s Statement and the
    corresponding question, B.7, on the Review List were designed to track adherence
    to requirements for daily end-of-day processing procedures. Army reworded the
    question on the Brooke Medical Center Review List to ask, “Does your policy
    support the adherence to requirements for daily end-of-day processing procedures
    by all clinics?” The interpretation significantly shifts the focus from procedural
    adherence to having a policy supporting adherence. Further, according to Brooke
    Army Medical Center personnel, no formal written procedures had been
    prescribed for end-of-day processing procedures at Brooke Army Medical Center.
    Therefore, the answer to the question as reworded should have been “No” but it
    was answered “Yes.”


    Wilford Hall Medical Center. While Wilford Hall Medical Center complied
    with Steps 1 through 3 of the DQMCP for the February 2001 reporting period,
    they did not adequately prepare the Review List and the Commander’s Statement
    (Program Step 1). The Review List and the Commander’s Statement had
    numerous incorrect responses, which could not be properly validated because of
    the lack of supporting documentation. For example, Commander’s Statement
    question number 6 and Review List question C.17, which call for completions of
    monthly financial and workload reconciliation’s of Military Expense Performance
    Reporting System, were answered “Yes” when evidence showed that the answers
    should have been “No.” Additional incorrect answers may still be unaccounted
    for because we could not determine the accuracy of all answers due to the lack of
    supporting documentation. When supporting documentation was requested, the
    Data Quality Assurance Team stated that there was not a requirement to retain
    supporting documentation.

    Naval Medical Center Portsmouth. Naval Medical Center Portsmouth did not
    fully implement the Data Quality Management Control Program and did not
    complete the Data Quality Control Review List as required by the ASD(HA)
    policy memorandum of November 29, 2000. Although the Data Quality
    Assurance Team met monthly, they struggled with interpretation issues and
    subsequently submitted information that was incorrect. As previously stated the
    Review List was not completed and 75 percent of the responses to the
    Commander’s Statement were incorrect. The estimated date to begin completion
    of the Review List was July 2001.


Surgeon General Program Implementation
    Although the Surgeons General of the Military Departments and TMA complied
    with the applicable steps in the DQMCP, neither provided specific training to
    implement the program to ensure standardized collection of data and accuracy of
    the data submitted by MTF. Training for each MTF staff member is normally
    conducted at the MTF or at the Service-level and is funded by the Military
    Departments. The policy memorandum did not include a training requirement.
    TMA does include the DQMCP in a three-day training course that is conducted
    quarterly. Initially, however, the three-day course devoted only one hour to the
    Review List and Commander’s Statement. TMA has since enhanced the three-


                                        6
    day training course to allot up to three hours to teaching the Review List and the
    Commander’s Statement. At each MTF visited, the data quality assurance team
    struggled with interpretation issues. Training would eliminate interpretation
    issues thus creating more standardized results for the Review List and
    Commander’s Statement.


TMA Program Implementation and Followup
    The ASD(HA) policy memorandum of November 29, 2000, did not provide
    adequate implementing guidance for the TMA, the Surgeons General, and each
    MTF to initiate and monitor the program. Specifically, the guidance did not
    include the following:

           •   a system for monitoring the implementation of the program and the
               accuracy of answers to the Review List and Commander’s Statement
               questions,

           •   standardized procedures for completing the questions on the Review
               List, and a requirement for retaining supporting documentation, and

           •   a detailed process for documenting and tracking the accomplishment
               of corrective actions, and metrics for monitoring the results of the
               program.

    Program Monitoring. The TMA previously did not have an adequate
    monitoring system in place to ensure that the DQMCP was fully implemented.
    Specifically, TMA did not monitor all Review Lists completed by each MTF and
    the accuracy of the answers. Without actively monitoring the implementation and
    compliance of the data quality program and the accuracy of the data in the
    metrics, TMA will receive unreliable data. TMA receives, assimilates, and
    reviews data from the Services and tracks the results of compliance within the
    data metrics. TMA issued a policy memorandum dated October 17, 2001, revising
    the Review List and the Commander’s Statement. The changes request that two
    additional Data Quality Management Control measures be adopted by the
    Services to allow TMA better oversight of data quality reporting and monitoring.
    However, since December 2001, each Service Inspector General has been
    required to conduct data quality audits for compliance with TMA data quality
    program guidance. Since December 2001, the Service data quality managers in
    each MTF have submitted performance reports directly to TMA in order to allow
    TMA to better monitor the DQMCP. Without monitoring the implementation of
    the program and the accuracy of the answers, TMA could receive unreliable data.
    Also, military health system data quality management controls will continue to be
    reported in the DoD Annual Statement of Assurance as a material weakness.

    Standardized Procedures. At each MTF visited, the data quality assurance team
    used different procedures to answer the same questions. For example, to answer
    question C.12.A, which required a random review of outpatient appointments, one
    MTF used an existing report and did not sample any records. This MTF reported
    that 24 percent of the outpatient medical records could not be located. A second


                                         7
MTF used a sample of 32 records selected from only one of more than 70 clinics.
This second MTF reported that 78 percent of the records could not be located.
Available guidance did not specify how a random sample should be conducted.
This use of inconsistent sampling methods resulted in data that cannot be used for
comparison. Support documentation was not available to validate most of the
responses in the Review List or Commander’s Statement at any of the three MTFs
visited. When supporting documentation was requested, data quality assurance
teams stated that there was not a requirement to retain supporting documentation.
Specific answers to questions on the Review List and Commander’s Statements
were not supported at two of the three MTFs visited. The Review List was not
completed at the third MTF. An audit trail would assist all levels of management
in ensuring that questions were answered accurately and consistently. In response
to audit efforts, TMA issued a policy memorandum on October 17, 2001. The
memorandum revises the Review List and the Commander’s Statement, and
initiates military treatment facility-level reporting to TMA beginning December
2001. The new guidance states that, for tracking purposes, the completed forms
and accompanying working papers must be kept on file for five years. The policy
memorandum of October 17, 2001, also includes the Data Quality Management
Control Program in each Service’s Medical Inspector General compliance
program.

Metric Development. TMA previously did not establish metrics for measuring
program effectiveness. TMA was responsible for developing metrics to measure
the results of the program and for posting the metrics on the TMA data quality
web site. At the time of our review, TMA had not determined the specific metrics
for the data quality program. Management stated they were waiting for initial
results before deciding on appropriate metrics. We believe performance measures
should be determined in advance of program implementation in order to establish
management expectations and goals. TMA was unable to provide the Surgeons
General and each MTF with adequate feedback on the condition of data quality
without the appropriate metrics. As of October 16, 2001, TMA had developed a
series of metrics to measure the effectiveness of the Services’ documentation of
data quality. In December 2001, the TMA began receiving monthly updated
metrics performance data from each individual MTF. The TMA plans to discuss
the results with the Data Quality Management Control Workgroup, which
includes representatives from TMA and the services. However, the metrics are
not currently posted in the TOPS on the TMA Website.

Tracking Corrective Actions. Each MTF is responsible for identifying data
quality deficiencies and proposing corrective actions. However, the policy
memorandum of November 29, 2000, does not establish a systematic process to
document that corrective actions have been taken. Without tracking the
accomplishment of corrective actions, management will not be aware of any
resolution to the deficiencies in data quality. The policy memorandum of
October 17, 2001, initiated reporting MTF-level performance to TMA by the
Service data quality managers beginning with the December 2001 reporting
period. This reporting will allow TMA better oversight of DQMCP issues and
improve the reporting and monitoring of the DQMCP overall.




                                    8
DQMCP Guidance
    As previously stated, the November 29, 2000, ASD(HA) policy memorandum,
    “Data Quality Management Control Program,” was issued for the purpose of
    implementing the DQMCP. The original policy memorandum fits the criteria for
    a directive-type memorandum as explained by DoD Directive 5025.1, “DoD
    Directives System,” dated July 27, 2000. DoD Directive 5025.1 states that a
    directive-type memorandum issued by the Secretary or Deputy Secretary of
    Defense, which because of time constraints cannot be published in the DoD
    Directives System at the time of signature, must be converted into a DoD
    Instruction within 180 days of signature. TMA and ASD(HA) did not comply
    with this Directive. TMA has issued a second policy memorandum dated
    October 17, 2001, revising the Review List and the Commander’s Statement. The
    second policy memorandum revises the Review Lists and provides additional
    DQMCP measures to be adopted. However, the second policy does not supersede
    the first, and both were issued after July 27, 2000. Therefore, in accordance with
    DoD Directive 5025.1, the policy should have been converted into a DoD
    Instruction by January 28, 2001. A DoD Instruction is a policy document
    containing what is required by legislation or the Secretary of Defense to initiate,
    govern, or regulate actions by DoD Components within their specific areas of
    responsibility. A DoD Instruction will regulate and ensure the implementation of
    the DQMCP.


Effects on Data Quality Management Control Program
    The Review Lists and Commander’s Statements at each MTF visited were
    inaccurate and without support documentation to validate responses. As a result,
    TMA was provided with incorrect and incomplete data for decision making on
    improving data quality. If corrective actions are not taken, the quality of the data
    will not improve. Specifically, financial and workload data used for important
    management decisions, such as cost allocation and cost finding, will remain
    inaccurate. As a result, DoD will not be able to make sound management
    decisions, the MRHB Liability estimate will continue to be unreliable and
    military health system data quality management controls will continue to be
    reported as a material weakness in the DoD Annual Statement of Assurance.




                                          9
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the TRICARE Management Activity provide
    implementing guidance to initiate and monitor the Data Quality
    Management Control Program. The guidance should include:

           a. a system for monitoring the implementation of the program and
    the accuracy of answers to the Review List and Commander’s Statement,

          b. standardized procedures for completing the questions on the
    Review List,

           c. a requirement for retaining supporting documentation,

         d. a Service-Wide detailed process for documenting and tracking the
    accomplishment of corrective actions, and

           e. metrics for measuring program performance.

    Management Comments. The TRICARE Management Activity concurred with
    the recommendation. The Office of the Assistant Secretary of Defense (Health
    Affairs) requested that the Services add the Data Quality Management Control
    Program to their Service’s Medical IG and/or Audit Agency compliance program
    and is requiring that Military Treatment Facilities’ level of performance be
    reported to TRICARE Management Activity. The Assistant Secretary also
    requested that each Service develop a uniform “Desk Guide” that supports and
    augments uniformity in use of the Review List and Commander’s Statement.
    Documentation supporting the Review List and Commander’s Statement will be
    kept on file for 5 years. In addition, systemic issues and Service-wide facility-
    level issues identified in the monthly Review List and Commander’s Statement
    submissions will be discussed, documented, and tracked at periodic TRICARE
    Management Activity Data Quality meetings. Metrics will be incorporated and
    used by TRICARE Management Activity to measure program performance.

    2. We recommend that the TRICARE Management Activity comply with
    DoD Directive 5025.1, “DoD Directive System,” and convert the policy
    memorandum of November 29, 2000, and all subsequent policy
    memorandums on the implementation of the Data Quality Management
    Control Program into a DoD Directive.

    Management Comments. TRICARE Management Activity concurred with the
    recommendation. TRICARE Management Activity submitted a Department of
    Defense Instruction for signature by the Assistant Secretary of Defense (Health
    Affairs). Future memos concerning the Data Quality Management Control
    Program will be incorporated into the existing Department of Defense Instruction
    on a periodic basis.




                                        10
3. We recommend that the Surgeons General of the Military Departments:

       a. monitor the compliance with and execution of the policies and
procedures described in the November 29, 2000, policy memorandum, "Data
Quality Management Control Program," issued by the Assistant Secretary of
Defense (Health Affairs); and

      b. provide specific training to program participants that will secure
compliance.

Management Comments. TRICARE Management Activity concurred with the
recommendation. The Office of the Assistant Secretary of Defense, Health
Affairs outlined major changes in the Data Quality Management Control Program
to improve military treatment facilities’ compliance with the program. These
include:

   •   changes in the Review List and Data Quality Commander’s Statement,

   •   reporting Military Treatment Facility-level performance to TRICARE
       Management Activity, and

   •   inclusion of the Data Quality Management Control Program into the
       Services’ Medical IG and/or Audit Agency compliance programs.

In addition, the portion of the quarterly TRICARE Management Activity Data
Quality Training course that is specifically devoted to Data Quality Management
Control Program instruction for data quality personnel has been increased from 45
minutes to 3 hours.

4. We recommend that the military treatment facilities comply with the
policy memorandum guidance pertaining to the Data Quality Management
Control Program by accurately completing the Data Quality Management
Control Review List and the Data Quality Statement.
Management Comments. TRICARE Management Activity concurred with the
recommendation. The Office of the Assistant Secretary of Defense (Health
Affairs) outlined major changes in the Data Quality Management Control
Program, which should improve military treatment facilities’ compliance with the
program.




                                   11
Appendix A. Scope and Methodology

Scope
    Work Performed. This audit focused on implementation of DQMCP for the
    military health system. Specifically, we reviewed MTF implementation of the
    program to determine whether the policies and procedures described in the
    November 29, 2000, policy memorandum, “Data Quality Management Control
    Program,” issued by the ASD(HA) were implemented. We visited TMA and
    Office of the Surgeon General for each Service to review their roles in
    implementing the program.

    We conducted our audit at the following DoD MTF sites:

           •   Brooke Army Medical Center, San Antonio, Texas;

           •   Wilford Hall Medical Center, San Antonio, Texas; and

           •   Portsmouth Naval Medical Center, Portsmouth, Virginia.

    Of the 143 DoD MTFs, we judgmentally selected those three for review from
    May 2001 to January 2002 to provide audit coverage for each of the Military
    Departments. The three MTFs were also judgmentally selected because of the
    material volume of outpatient visits at those facilities. According to the
    ASD(HA), the three MTFs we visited reported a total of 3.2 million outpatient
    visits (10 percent) out of the 32.4 million outpatient visits reported for 143 MTFs
    worldwide in FY 2000.

    At each MTF visited, we reviewed procedures for implementing the DQMCP.
    Specifically, we reviewed procedures for completing the Data Quality
    Management Control Review List and the Commander’s Statement.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Methodology
    Use of Computer-Processed Data. We relied on computer-processed data to
    determine whether the DQMCP for the military health system was implemented.
    Specifically, we relied on workload data outputs that we could find to support
    documentation for the answers given to questions on the Data Quality
    Management Control Review List and the Data Quality Statement at each MTF.
    We did not validate the reliability of the computer-processed data because we
    limited our use of the data to specific questions so that we could determine the



                                        12
     adequacy of the implementation of the DQMCP at each MTF visited. However,
     not validating the reliability of MTF computer-processed data did not materially
     affect the results of the audit.

     Audit Dates and Standards. We performed this audit from April 2001 to
     March 2002 in accordance with generally accepted government auditing
     standards.

     Contacts During the Audit. We visited or contacted organizations within DoD.
     Further details are available on request.


Prior Coverage
     The General Accounting Office and the Inspector General of the Department of
     Defense (IG DoD) have conducted multiple reviews related to financial statement
     issues. General Accounting Office reports can be accessed on the Internet at
     http://www.gao.gov. IG DoD reports can be accessed on the Internet at
     http://www.dodig.osd.mil/ audit/reports. The IG DoD has issued four reports on
     the military retirement health benefits liability estimate and a report on the
     Defense Enrollment Eligibility Reporting System database.

Inspector General of the Department of Defense
            IG DoD Report No. D-2001-154, “Beneficiary Data Supporting the DoD
            Military Retirement Health Benefits Liability Estimate,” July 5, 2001

            IG DoD Report No. D-2000-194, “Demographic Data Supporting the DoD
            Military Retirement Health Benefits Liability Estimate,” September 29,
            2000

            IG DoD Report No. D-2000-090, “Inpatient Data Supporting the DoD
            Military Retirement Health Benefits Liability Estimate,” March 1, 2000

            IG DoD Report No. CIPO2000S001, “Evaluation of the Criminal
            Investigative Environment in which the Defense Enrollment Eligibility
            Reporting System Operates,” January 7, 2000

            IG DoD Report No. 99-127, “Data Supporting the FY 1998 DoD Military
            Retirement Health Benefits Liability Estimate,” April 7, 1999




                                         13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Surgeon General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          16
Assistant Secretary of Defense (Health Affairs)
Comments




                       17
18
19
20
     Final Report
      Reference




     Revised




21
Team Members
The Financial and Accounting Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul Granetto
David Vincent
Walter Loder
Adrienne Brown
Linh Truong
Walter Gaich
Sidney Simms
